2
3
4
                    AUDIT OF BOSCART CONSTRUCTION, INC.

                           AUDIT REPORT NUMBER 0-31

                                SEPTEMBER 30, 2000




This report may contain proprietary information subject to the provisions of
18 USC 1905 and must not be released to the public or another agency without permission
of the Office of Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416

                                                                      AUDIT REPORT
                                                             Issue Date: September 30, 2000
\
                                                             Number: 0-31

To:            Kerry L. Kirkland, Associate Deputy Administrator for Government
                 Contracting and Minority Enterprise Development

               Thomas A. Dumaresq, Assistant Administrator for Administration

               David R. Kohler, Deputy General Counsel



From:          Robert G. Seabrooks, Assistant Inspector General for Auditing

Subject:       Audit of Boscart Construction, Inc. (Boscart)

        We completed an audit of SBA’s (1) evaluation of Boscart’s initial eligibility for the 8(a)
program, (2) process for ensuring the company’s continuing compliance with 8(a) program
requirements, and (3) award and administration of contracts with Boscart. The 8(a) program was
created to assist small business concerns owned and controlled by socially and economically
disadvantaged individuals develop their business skills and become viable business firms. To be
certified by SBA for participation in the program, applicants must show that their firms are
owned by socially and economically disadvantaged individuals, meet SBA’s small business size
standards, and have a reasonable potential for success, as defined in SBA regulations. Firms in
the program are eligible for contracts that Federal agencies set aside for 8(a) firms and may
receive SBA technical assistance and management training. In fiscal year 1999, about 6,000
small businesses participated in the program, and $6 billion was awarded in 8(a) contracts.

       SBA’s Office of Procurement and Grants Management is responsible for administering
and acquiring contractual services for SBA in accordance with applicable Federal requirements.
The Office of Government Contracting and Minority Enterprise Development (GC&MED) is
responsible for determining the eligibility of firms for the 8(a) program.

        In September 1997, SBA certified Boscart Construction Inc., a general contracting
company, solely owned by its president, for participation in the 8(a) program. In October 1997,
SBA appointed Boscart’s owner to its National Small Business Development Center (SBDC)
Advisory Board. In May 1998, SBA hired Boscart’s owner’s spouse as a GS-15 Schedule C
(political appointee) in the Office of Capital Access. Between February and September 1998,
SBA awarded six contracts to Boscart that ultimately totaled $658,310 in value, as shown in the
table below.
        Contract No.                Date       Amount                    Description
    SBAHQ-98-M-0324               2/3/98       $ 3,910        5th floor build out
    SBAHQ-98-V-0021              2/19/98          1,980       4th floor conf. room doors
    SBAHQ-98-M-0468              3/25/98         2,378        Fabricate door
    SBAHQ-98-V-0068              6/19/98      122,900         Design Wash. Design Ctr.
    SBAHQ-98-C-0012              8/17/98        36,434        Demolition, etc
    SBAHQ-98-C-0014               9/1/98      490,708         8th floor renovations
      Total                                 $ 658,310

The last three contracts were funded by the Small Disadvantaged Business (SDB) program.


                                 OBJECTIVES AND SCOPE

        The objectives of our audit were to determine whether SBA (1) properly evaluated
Boscart’s initial eligibility for the 8(a) program and ensured its continuing compliance with 8(a)
program requirements, and (2) awarded and administered its contracts with Boscart in
accordance with its internal procedures and applicable regulations. We reviewed SBA’s files
related to Boscart, its owner and the owner’s spouse, and interviewed various SBA and
contractor personnel. We also analyzed accounting information and amounts paid to Boscart for
services rendered and contract performance. We conducted fieldwork during the period
February to August 2000. The audit was conducted in accordance with Government Auditing
Standards.


                                     RESULTS OF AUDIT

         SBA’s process for evaluating Boscart’s initial 8(a) program eligibility was flawed
because it relied on inaccurate and unverified financial information. Subsequently, the agency
did not ensure the company’s compliance with 8(a) program requirements by accepting a
contract on the company’s behalf for which it was not eligible. In addition, SBA did not comply
with (1) its standards of conduct regulations by awarding contracts without required approvals
and (2) Federal Acquisition Regulations (FAR) by not documenting significant contract actions.
As a result, the Agency has reduced assurance that its programs and operations are achieving
their intended purposes, in accordance with prescribed policies, procedures and ethical
requirements.

       SBA managers provided comments to a draft of this report during several meetings.
They also stated that they had insufficient time to provide a full response. A summary of their
comments along with the OIG evaluation is presented after each finding.




                                                2
Finding 1: Eligibility for Admission to the 8(a) Program

        SBA’s process for determining Boscart’s initial 8(a) program eligibility was flawed
because it relied on inaccurate and unverified financial information. On the Personal Financial
Statements submitted with the company’s 8(a) application, the company’s owner and her spouse
did not disclose significant amounts of unpaid Federal taxes. Nor did they disclose another
significant debt, a defaulted loan, which resulted in a judgment against them for $133,000 plus
interest in 1992.

        Had SBA known of these liabilities, it could have impacted on the determination that
Boscart was eligible for program entry. Companies must possess reasonable prospects for
success in order to be eligible for the program. One of the factors SBA evaluates in assessing
potential for success is financial capacity. The undisclosed liabilities, although personal, could
have had a material impact on Boscart’s financial capacity because a small business concern can
be significantly impacted by the owner’s financial capability. SBA may have declined Boscart
had it known of the undisclosed liabilities.

         SBA relies partly on unverified information provided by applicants in making initial
eligibility determinations, e.g. personal liabilities. Had SBA obtained a personal credit report on
Boscart’s owner, SBA would, in all probability, have known that the owner significantly
understated her personal liabilities. The assessment of potential for success would have been
based on a more accurate picture of the firm’s financial capacity, which was significantly worse
than what SBA thought was the case when it made its determination.

        Under current regulations, if a credit report had been obtained, SBA could have found
Boscart ineligible for program entry for three reasons: (1) providing false information to SBA,
(2) lacking business integrity as demonstrated by the civil judgment, and (3) failure to pay
significant financial obligations to the Federal government.

Recommendation

1A.    We recommend that the Associate Deputy Administrator for GC&MED, suspend Boscart
       from the 8(a) program based on the owner’s non-disclosure of significant personal
       liabilities.

SBA Management’s Response

        SBA management stated that it is not clear that knowledge of significant debt owed by
Boscart’s owner would have led to a different eligibility determination. SBA management
further stated that business prospects for success are not the same as an owner’s borrowing
potential and the personal debt of Boscart’s owner does not necessarily show a lack of business
integrity. SBA management did, however, agree to consider whether suspension might be
appropriate along with termination.




                                                 3
OIG Evaluation of Management’s Response

        We agree that it is not clear that knowledge of the undisclosed personal debts would have
led to a different 8(a) program eligibility determination in 1997. Under current regulations,
however, the non-disclosure of those debts would preclude the company’s acceptance into the
program. SBA management’s proposed action of considering whether to suspend Boscart from
the 8(a) program is responsive to our recommendation.




                                                4
Finding 2: Compliance with 8(a) Program Requirements

       Although Boscart did not submit 1997 financial statements in accordance with SBA
requirements, and was, therefore, ineligible for 8(a) contract awards, SBA accepted on the
company’s behalf a sole source 8(a) contract ultimately valued at $490,708.

        Under Title 13 CFR § 124.602 (b),

             [8(a)] Participants with gross annual receipts between $1,000,000 and
             $5,000,000 must submit to SBA reviewed annual financial statements
             prepared by a licensed independent public accountant within 90 days
             after the close of the concern’s fiscal year.

        Title 13 CFR §124.503 (c) provides further that

             Once SBA determines that a procurement is suitable to be accepted as
             an 8(a) sole source contract, SBA will normally accept it on behalf of
             the Participant . . . provided that . . . the Participant has submitted
             required financial statements to SBA.1

      On June 25, 1998, SBA’s Washington District Office (WDO) sent a letter notifying the
company that it needed to provide reviewed financial statements for 1997. The letter also stated:

             Firms whose financial statements are overdue and/or incomplete
             cannot be awarded 8(a) contracts and may be subject to termination
             from the 8(a) program.

        In September 1998, although Boscart still had not submitted the required statements, the
WDO accepted on Boscart’s behalf a sole source 8(a) contract ultimately valued at $490,708. As
of May 2000, Boscart still had not submitted required financial statements, and SBA was taking
steps to terminate the company from the 8(a) program.

Recommendation

2A.     We recommend that the Associate Deputy Administrator for GC&MED, in conjunction
        with the Associate Administrator for Field Operations, reinforce the need for staff
        involved in the acceptance of 8(a) awards to ensure that program participants are in
        compliance with program requirements before accepting awards on their behalf.




1
 8(a) program contracts involve three party agreements through which SBA accepts the contract on behalf of the
8(a) participant, enters into a contract with the procuring government agency and subcontracts to the 8(a)
participant. In this case, SBA was also the procuring government agency, so the contract was between SBA’s Office
of Procurement and its Washington District Office.


                                                       5
SBA Management’s Response

       SBA management stated that these regulatory requirements are procedural in nature, for
SBA’s benefit, and can be waived when appropriate. Also, sole source contracting opportunities
can be extended to firms that are delinquent in submitting financial statements. SBA
management further stated that Boscart was not given unusual or special treatment. SBA
management agreed with the recommendation to the extent of reviewing and clarifying the
provisions relative to the appropriate handling of non-compliance with these provisions.

OIG Evaluation of Management’s Response

        The Agency responded that the “regulatory requirements are procedural in nature, for
SBA’s benefit, and can be waived when appropriate.” We believe that (a) the Agency’s
acceptance of a contract for which the company was ineligible and (b) its response to the audit
undermine the integrity of the 8(a) program and weaken the agency’s control environment. We
also believe the regulations are clear regarding (a) the requirement for 8(a) companies to submit
annual financial statements and (b) the acceptance of sole-source contracts on a company’s
behalf – provided the company has submitted the required financial statements. The agency’s
June 1999 letter was also clear that the company was ineligible for 8(a) contract awards until it
submitted the required statements.

        We do not agree with the implication that the procedural nature of the regulations reduces
the need for compliance with them. Nor do we agree with the implication that because the
regulations are for SBA’s benefit, the need for compliance is reduced. Firstly, the regulations are
not only for SBA’s benefit. They are also for the benefit of 8(a) program participants, other
procuring agencies, Congress, and the taxpayer. Secondly, even if the regulations were only for
SBA’s benefit, without a justified and documented decision waiving the requirements by
someone with appropriate authority, they should be complied with. In this case, there is no
indication that SBA intended to waive the requirement. Instead, the agency subsequently began
termination proceedings against the company for not submitting required statements.

        We are also concerned with management’s statement that “Boscart was not given unusual
or special treatment.” This appears to say that non-compliance with 8(a) program regulations is
a common and usual occurrence.

        Lastly, if SBA had complied with and enforced its regulations, the outcome for the
company may have been more favorable. As it turned out, the award of the construction contract
appears not to have benefited the company. Cost overruns, claims against the surety, etc.
indicate that the contract may have actually damaged the company’s prospects for success. If
SBA had required Boscart to submit the required statements before accepting the contract, the
agency may have determined that the company was not financially prepared for such a large
contract and that it needed other forms of business development assistance.




                                                6
Finding 3: Standards of Conduct and Advisory Board Procedures

       SBA did not comply with its Standards of Conduct regulations, by awarding Boscart
contracts without obtaining required Standards of Conduct Committee approvals. All of the
Boscart contracts were awarded while the company’s owner was a member of the National
SBDC Advisory Board2 and therefore, required the approval of the Standards of Conduct
Committee. In addition, the Agency did not comply with its Advisory Board procedures,
because it did not obtain Standards of Conduct Committee approval for Boscart’s owner’s
appointment to the SBDC Advisory Board.

       Title 13 CFR § 105.302, (Assistance to employees or members of quasi-government
organizations) provides:

              The Standards of Conduct Committee must approve SBA assistance3,
              other than Disaster loans . . . to a person if its sole proprietor, general
              partner, officer, director or stockholder with a 10 percent or more
              interest (or a household member) is a member or employee of a Small
              Business Advisory Council4 or is a SCORE volunteer.

       In October 1997, the SBA Administrator appointed Boscart’s owner to a three year term
on the National SBDC Advisory Board, and subsequently the Agency awarded the company six
sole source contracts. The Agency did not, however, obtain Standards of Conduct Committee
approval for any of these awards.

        In addition, when Boscart’s owner was appointed to the SBDC Advisory Board, SBA did
not comply with its Standard Operating Procedure 90 54 4 (SBA Advisory Councils) which
states:

              No person can be appointed to an Advisory Council if he or she
              already is an applicant for or recipient of SBA assistance (other than
              disaster loans . . .) without prior written approval of the Standards of
              Conduct Committee, which will determine if there is any significant
              conflict of interest or the appearance of a conflict of interest . . . .

        Boscart was accepted into the 8(a) program in September 1997, prior to the
owner’s appointment to the SBDC Advisory Board. Under 13 CFR § 105.201, the owner
was, therefore, a recipient of SBA assistance. SBA’s Standards of Conduct Committee
did not, however, approve her appointment to the Advisory Board.




2
  This board was established by law to advise and confer with SBA on SBDC policy matters.
3
  SBA assistance is defined in 13 CFR § 105.201 as “financial, contractual, grant, managerial or other aid,
including size determination, section 8(a) participation, licensing, certification, and other eligibility determinations
made by SBA.”
4
  Under the Federal Advisory Committee Act, “an advisory committee means any committee, board, commission,
council . . . established . . . in the interest of obtaining advice. . . .”


                                                           7
Recommendation

 3A.     We recommend that the Designated Agency Ethics Official review the Agency’s policies
and procedures for ensuring compliance with the Agency’s Standards of Conduct Regulations and
revise those policies and procedures as necessary. The Agency should as part of this process
develop means for sharing and accessing essential information between Agency offices, e.g., a
more effective “vetting” process.

SBA Management’s Response

        SBA management agreed with the finding and recommendation.




                                              8
Finding 4: Ethics Opinion Regarding Boscart Contracts

        An ethics opinion regarding SBA contracts with Boscart was inconsistent with the facts
and with the Office of Government Ethics’ government-wide treatment of spouses for purposes
of conflict of interest analyses. After SBA’s Assistant Administrator for Administration became
aware that Boscart’s owner’s spouse was a SBA employee, he requested advice from the
Designated Agency Ethics Official (DAEO), asking whether Boscart’s “continued performance
of the contract violated any ethics laws, regulations or policies.”

        The DAEO responded in a memorandum dated September 2, 1998: “ Based on the facts
presented, it is our opinion that neither the award or the performance of the Boscart contract
violates ethics laws, regulations, or policies.” The DAEO provided the following rationale for
this conclusion:

           The contract was awarded prior to [his] SBA employment, he is not an
           owner, officer, or director of Boscart, and he has no official Agency
           duties that relate to Boscart or the 8(a) program.

        This statement “the contract was awarded prior to [his] SBA employment” was
inaccurate for two reasons. First, SBA awarded Boscart three contracts, not just one, related to
the “design and construction of new office space for the SDB and HubZone programs” – the
subject of the DAEO’s memorandum. Second, Boscart’s owner’s spouse began employment at
SBA on May 25, 1998, and the first of the three subject contracts was awarded on June 19, 1998,
three weeks later.

        Accordingly, the facts suggest that contractual assistance to Boscart may have needed the
prior approval of the Standards of Conduct Committee in accordance with 13 CFR §105.204
(Assistance to SBA employees or members of their household) which states:

           Without the prior written approval of the Standards of Conduct
           Committee, no SBA assistance, other than Disaster loans . . . shall be
           furnished to a person when the sole proprietor, partner, officer,
           director or significant stockholder of the person is an SBA employee
           or a household member.

       The DAEO’s memorandum also stated:

          [Boscart’s owner’s spouse] states that he and his wife are legally separated
           and planning a divorce. They no longer share a household.

          . . . future assistance to Boscart, if [he and his wife] reconcile their differences
           and she becomes a member of his household, will require standards of
           conduct approval.




                                                  9
        In the latter statement, the DAEO indicated that contracts with Boscart did not require
standards of conduct approval, because the company’s owner and her spouse were separated and
did not share a household. Title 13 CFR § 105.201 provides:

           Household member means spouse and minor children of an employee,
           all blood relations of the employee and any spouse who resides in the
           same place of abode with the employee.

        The DAEO’s opinion indicated that Boscart’s owner was not a “household member” for
standards of conduct purposes, because she and her spouse were separated. According to an
attorney at the Office of Government Ethics (OGE), however, for purposes of both 18 USC §
208 (actual conflicts of interest) and 5 CFR § 2635.502 (appearance of conflicts) (both
government-wide authorities), OGE views a legal separation as having no impact on the
definition of "spouse," when determining whether there is an actual conflict or an appearance of
a conflict of interest. In other words, even when two married individuals have a legal separation
agreement and are living apart, they are treated as a married couple by OGE for purposes of
performing conflict of interest analyses.

Recommendation

4A.    We recommend that the Deputy General Counsel revise 13 CFR §105.201 to clarify that
       an employee’s spouse should be considered a “household member,” whether or not the
       spouse resides in the same place of abode with the employee, so long as they are legally
       married.

SBA Management’s Response

        SBA management stated that SBA’s regulations deal only with receipt of Agency
assistance, not with conflict of interest cases covered by OGE regulations. SBA management
agreed to review its regulations on this point, but stated that it may elect to treat a separated
spouse differently from the OGE regualtions.

OIG Evaluation of Management’s Response

       Management’s comments are responsive to the recommendation.




                                                10
Finding 5: Contract Administration

         SBA did not properly administer two of its contracts with Boscart. It is not clear from the
files that contract requirements were completed in accordance with the statements of work.
Certain aspects of the administration of Boscart’s contracts did not comply with various
provisions of the Federal Acquisition Regulations (FAR). Also SBA increased one of the
contracts by $70,000, more than eight months after the contract completion date, without any
rationale in the file to justify the amount of the increase.

Contract No. SBAHQ-98-V-0068

        On June 19, 1998, SBA awarded Boscart a fixed-price contract in the amount of $17,250
for design of 15,000 square feet of office space on the 8th floor of the Washington Design Center.
The work was to be completed by July 31, 1998. On August 11, 1998, SBA modified this
contract to extend the completion date to October 30, 1998, and increase the scope of work.
Under the modified contract, the price was increased to $52,900, and Boscart was to design an
additional 31,000 square feet of office space on the 2nd, 5th and 8th floors of the Washington
Office Center. It is not clear from the contract files whether Boscart completed all of the work
specified.

Contract No. SBAHQ-98-C-0014

        On September 1, 1998, SBA awarded Boscart a $406,029 contract for construction of
new office space on the 8th floor of the Washington Design Center. The contract required the
company to complete the project by September 30, 1998. On September 28, 1998, the SBA
program office (GC & MED) approved a requisition to add $70,000 to the contract for
“unforeseen construction increases.” On September 30, 1998, the SBA Contracting Officer sent
Boscart a letter (see Attachment 1) that appears to be a change order under the changes clause of
the contract (FAR clause 52.243-4). The letter authorized Boscart “to proceed” and “to incur
costs in an amount not to exceed $70,000.” The letter also stated that “the contract will be
increased by that amount.”

       Paragraph (d) of FAR Part 52.234-4 Changes clause provides, in part

       If any change under this clause causes an increase or decrease in the
       Contractor’s cost of, or the time required for the performance of any part of the
       work under this contract, whether or not changed by any such order, the
       Contracting Officer shall make an equitable adjustment and modify the contract
       in writing.

       Despite the Contracting Officer’s letter stating the contract price will be increased
and the requirement of FAR 52.242-4(d), the construction contract was not modified for
the $70,000 increase.

       The contract also required Boscart to obtain payment and performance bonds within 10
days of the contract award. Under FAR § 52.228, Boscart should have provided the bonds



                                                11
before work began. Boscart did not, however, provide the bonds until October 6, 1998, over a
month after work had started and the company had been paid about $144,000. In order to obtain
the bonds, Boscart signed an agreement providing for SBA to make subsequent contract
payments through a lockbox for the benefit of the bonding company.

        The project encountered a series of delays and difficulties, including cost overruns, a
mechanics lien and claims of more $178,000 by subcontractors against the surety company that
bonded the contract. On March 3, 1999, SBA sent Boscart a letter (see Attachment 2) stating:
“effective immediately, you are hereby directed to cease all further work toward completion of
the punchlist items.” 5 The letter cited the company’s failure to complete 80 percent of the
punchlist, and stated “another contractor will complete the punchlist items, and the cost will be
deducted from your contract.” Subsequently, in June 1999, the company submitted a request to
SBA for an additional $322,000 – based on cost overruns, modifications, etc.

       Although the March 1999 letter directing the company to cease work on the punchlist and
the Agency’s subsequent interactions with the company had many of elements of a contract
termination, the agency did not follow the procedures described in FAR Part 49 - Termination of
Contracts. Instead, according to agency officials, all open issues were settled in a negotiation
using procedures authorized by FAR 33.214 - Alternative Dispute Resolution (ADR).6

       Specifically, in July 1999, according to SBA officials, “SBA settled all open issues in
controversy by:

        (1)    Increasing the amount of the design contract7 and paying Boscart an additional
               $70,000, and

        (2)    Not requiring Boscart or the surety company to complete the items on the punchlist.
               (SBA subsequently paid other contractors over $15,000 to complete some of these
               items.)

        (3) Determining that all contracts were completed in a satisfactory manner.”

        Under FAR Part 33.214, “the objective of using ADR is to increase the opportunity for
relatively inexpensive and expeditious resolution of issues in controversy.” Under FAR Part
33.201, “Issue in controversy” means a material disagreement between the Government and the
contractor which

        (1) May result in a claim or
        (2) Is all or part of an existing claim.



5
  A punchlist is a list of discrepancies that need to be corrected by the contractor. In this case, the three page
punchlist described such items as HVAC system, millwork, doors, and finish work that needed to be completed.
6
  Under FAR Part 33.201, “Alternative Dispute Resolution” (ADR) means any type of procedure or combination of
procedures voluntarily used to resolve issues in controversy.
7
  All design contract funds had been either expended or deobligated in September 1998.


                                                        12
        There was, however, no evidence in the contract files to support the need for ADR.
Although SBA officials informed us they did not agree with Boscart’s $322,000 request, there
was no evidence of a review or analysis of the request to specify the basis for a “material
disagreement.” There was also no documentation to support that the agency’s actions involved a
settlement. The $70,000 increase to the design contract, which more than doubled the contract
price, was supported by the September 1998 requisition to modify the construction contract – for
“unforeseen construction increases.” The payment of the $70,000 was supported by a request for
payment from Boscart for unspecified work performed on the design contract. The construction
contract file had no documentation relating to (a) Boscart’s request for a $322,000 increase, (b)
the resolution of the punchlist items, or (c) the justification for “determining that the contracts
were completed in a satisfactory manner.” In fact, the last evidence of communication with
Boscart in the construction contract file was the letter directing the company to cease work on
the punchlist items.

       The lack of documentation describing and supporting these actions and circumstances did
not comply with FAR Part 4.801(b) requirements that:

       The documentation in the files (see 4.803) shall be sufficient to constitute a
       complete history of the transaction for the purpose of –

       (1) Providing a complete background as a basis for informed decisions at each
           step in the acquisition process;

       (2) Supporting actions taken;

       (3) Providing information for reviews and investigations; and

       (4) Furnishing essential facts in the event of litigation or congressional inquiries.

       Without documentation describing and supporting the circumstance and actions related to
the administration of these contracts, we were not able to fully evaluate their propriety.

Recommendation

5A.    We recommend the Assistant Administrator for Administration take appropriate actions
       and complete the documentation of the contract files, for the two Boscart contracts
       discussed above, to comply with the requirements of the FAR.

SBA Management’s Response

       SBA management did not believe its contract administration was flawed. SBA
management further stated that Boscart did an exceptional job in meeting SBA’s design
requirements, and in fact performed work that exceeded the value of the contract. SBA also
obtained an amicable solution to cost overrun problems, and agreed to increase the value of the
design contract by $70,000. SBA management did, however, agree to complete documentation of
the contract file.



                                                13
OIG Evaluation of Management’s Response

       We do not agree with management’s assertion that the contract administration was not
flawed. We believe the absence of documentation supporting actions taken and the resolution of
various issues is a significant deficiency. Without adequate documentation, the propriety of
various actions and resolution of issues can not be determined. At best, this leaves open the
possible appearance of impropriety.


                                            * * * *

        The findings and recommendations in this audit report are based on the conclusions of the
Auditing Division. The recommendations are subject to review, management decision and
corrective action by your office in accordance with existing Agency procedures for audit follow-
up and resolution.

       Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
Recommendation Action Sheet, and show either your proposed corrective action and target date
for completion, or explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert Hultberg, Director,
Business Development Programs Group at (202) 205-7204


Attachments.




                                               14
                                                                           Attachment 1
                               U.S. Small Business Administration
                                    Washington, D.C. 20416




September 30, 1998

Barbara Turner
Boscart Construction, Inc.
1080 Wisconsin Ave., NW, Suite 300
Washington, DC 20007

Subject: Contract SBAHQ-98-C-0014, Eight Floor Renovations

Dear Ms. Turner.

The Small Business Administration’s Office of Procurement and Grants Management has
reviewed and approved your proposal for the estimated additional amount of $70,000.00 under
the subject contract. The contract will be increased in that amount. Therefore, you are hereby
authorized to incur costs in an amount not to exceed $70,000.00.

All services rendered should be in accordance with your proposal. Any variation should be
discussed with the Contracting Officer immediately prior to making any changes. Your
Contracting Officer Technical Representative for this effort is Michelle Hodges. She can be
contacted at (202) 205-7018.

This notification is authorization to proceed. However, please note that acceptance of your
proposal is subject to final negotiations, which should take place within the next 30 days. Please
refer to the requisition number 8.6368.0356 in all correspondence relative to this action.

If you have any questions, please call me at (202) 205-7051.
`

Sincerely,



Deborah M. Woods
Contracting Officer




                                                15
                                    U.S. Small Business Administration
                                         Washington, D.C. 20416



                                                                                  Attachment 2

March 3, 1999

Barbara Turner
Boscart Construction, Inc.
1080 Wisconsin Ave., NW, Suite 300
Washington, DC 20007

Subject:        Contract SBAHQ-98-C-0014, 8th Floor Renovations

Dear Ms. Turner:

This letter is in reference to the punchlist items for the subject contract.

In our letter of December 16, 1998, the prompt and timely completion of the punchlist was
stressed. In addition, in our meeting of December 17, 1998, you stated that completion of the
punchlist items would begin on January 4, 1999. To date, approximately 80 percent of the
punchlist items have not been completed.

Therefore, effective immediately, you are hereby directed to cease all further work towards
completed of the punchlist items. Another contractor will complete the punchlist items, and the
cost will be deducted from your contract.

If you have any questions regarding this matter, please contact me at (202) 205-7051.

Sincerely,


Deborah M. Woods
Contracting Officer

cc: Michelle Hodges, COTR




                                                  16
                                                                                                                           Attachment 3


                                            AUDIT REPORT DISTRIBUTION



Recipient                                                                                                     Number of Copies

Administrator ................................................................................................................. 1

Deputy Administrator .................................................................................................... 1

General Counsel, Office of General Counsel ............................................................... 2

Associate Deputy Administrator for Management & Administration .......................... 1

Associate Administrator for Minority Enterprise Development ................................... 1

Office of Chief Financial Officer
Attention: Jeffrey Brown ............................................................................................. 1

General Accounting Office ............................................................................................ 2
